V

■*x

IN THE SUPREME COURT
FOR THE
UNITED STATES OF AMERICA

IN RE KEVIN D. LOGGINS SR.

CASE NO.
(to be SUPPLIED BY THE COURT)

NO RELIEF A VAILIBITY IN ANY OTHER
STATE OR FEDERAL COURT
PURSUANT TO SUP. CT. R. 20
(28U.S.C. $2241)
Comes now, Petitioner Kevin D. Loggins Sr, pro se in compliance with Sup. Ct. R.
20(2-3), emphasizing the grounds why the relief sought can only be granted by this Superior
Court, why relief is not available in any other court, as well as establish this Superior Courts
Appellate Jurisdiction.

Standard of Review: 28 U. S. C. § 2241 provides:
"(a) Writs of habeas corpus may be granted by the Supreme Court, any justice thereof, the
district courts and any circuit judge within their respective jurisdictions. The order of a
circuit judge shall be entered in the records of the district court of the district wherein the
restraint complained of is had.
"(c) The writ of habeas corpus shall not extend to a prisoner unless —
"(1) He is in custody under or by color of the authority of the United States or is committed for
trial before some court thereof; or
"(2) He is in custody for an act done or omitted in pursuance of an Act of Congress, or an order,
process, judgment or decree of a court or judge of the United States; or
"(3) He is in custody in violation of the Constitution or laws or treaties of the United States;
1

A

or
"(4) He, being a citizen of a foreign state and domiciled therein is in custody for an act done or
omitted under any alleged right...; or
"(5) It is necessary to bring him into court to testify or for trial."
Art. I, § 9, cl. 2.
The habeas corpus provisions of § 14 of the original Judiciary Act, 1 Stat. 81 (1789), were
amended by 4 Stat. 634 (1833), 5 Stat. 539 (1842), 14 Stat. 385 (1867), R. S. §§ 752-753 (1875),
and 43 Stat. 940(1925).
R. S. § 751 (1875): "The Supreme Court and the circuit and district courts shall have power to
issue writs of habeas corpus."
R. S. § 752 (1875): "The several justices and judges of the said courts, within their respective
jurisdictions, shall have power to grant writs of habeas corpus for the purpose of an inquiry into
the cause of restraint of liberty." (Emphasis added).
"It having been held that the regulation of the appellate power of this court was conferred
upon Congress, and Congress having given an appeal or writ of error in only certain specified
cases, the implication is irresistible, that those errors and irregularities, which can only be
reviewed by appeal or writ of error, cannot be reviewed in this court in any other cases than those
in which those processes are given. Now, it has always been held that " a mere error in point of
law, committed by a court in a case properly subject to its cognizance, can only be reviewed by
the ordinary methods of appeal or writ of error; but that where the proceedings are not only
erroneous, but entirely void. -- as where the court is without jurisdiction of the person or of
the cause, and a party is subjected to illegal imprisonment in consequence. — the Superior
Court, or judge invested with the prerogative power of issuing a habeas corpus, may review
the proceedings by that writ, and discharge from illegal imprisonment. This is one of the
modes in which this court exercises supervisory power over inferior courts and’tribunals;
but it is a special mode, and confined to a limited class of cases". See Ex parte Parks. 93
U.S. 18.23 L. Ed. 787118761.
This Court further held:
"The general principles upon which the writ of habeas corpus is issued in England were
well settled by usage and statutes long before the period of our national independence, and must
have been in the mind of Congress when the power to issue the writ was given to the courts and
judges of the United States. These principles, subject to the limitations imposed by the Federal
Constitution and laws, are to be referred to for our guidance on the subject. A brief reference to
the principal authorities will suffice on this occasion.

2

Lord Coke, before the Habeas Corpus Act was passed, excepted from the privilege of the writ
persons imprisoned upon conviction for a crime, or in execution. 2 Inst. 52; Com. Dig., Hab.
Corn. B.
The Habeas Corpus Act itself excepts those committed or detained for treason or felony plainly
expressed in the warrant, and persons convict, or in execution by legal process. Com. Dig., Hab.
Corp. B.
Lord Hale says, "If it appear by the return of the writ that the party be wrongfully committed, or
by one that hath not jurisdiction, or for a cause for which a man ought not to be imprisoned, he
shall be discharged or bailed." 2 Hale's H.P.C. 144.
Chief Baron Gilbert says, "If the commitment be against law, as being made by one who had no
jurisdiction of the cause, or for a matter for which by law no man ought to be punished, the court
are to discharge. Bac. Abr., Hab. Corp. B, 10.
"These extracts are sufficient to show, that, " when a person is convict or in execution by legal
process issued by a court of competent jurisdiction, no relief can be had. Of course, a superior
court will interfere if the inferior court had exceeded its jurisdiction, or was not competent to act.
The courts of the United States derive their jurisdiction on this subject from the Constitution and
laws of the United States. " The fourteenth section of the Judiciary Act granted to all the courts
power to issue writs of scire facias, habeas corpus, and all other writs necessary for the exercise
of their respective jurisdictions, and agreeable to the principles and usages of law; and to the
justices and judges, power to graht writs of habeas corpus for the purpose of inquiry into the
cause of commitment; but it added a proviso, that the writ should not extend to prisoners in jail,
unless in custody under or by color of authority of the United States, or committed for trial before
some court of the same, or necessary to be brought into court to testify. It was found necessary to
relax the limitation contained in this proviso; and this was done in several subsequent laws. See
act of 1833 (4 Stat. 634), passed in consequence of nullification proceedings in South Carolina;
act of 1842 (5 Stat. 539), passed in consequence of the McLeod Case; and act of 1867 (14 Stat.
44), passed in consequence of the state of things that followed the late rebellion.
" The power of the Supreme Court is subject to a further limitation, f*** 101 arising from its
constitutional want of original jurisdiction on the subject; from whence it follows that, except in
aid of some other acknowledged jurisdiction, it can only issue the writ to review the action of
some inferior court or officer. Ex parte Barry. 2 How. 65.
"From this review of the law it is apparent, therefore, as [*231 before suggested, that in a case
like the present, " where the prisoner is in execution upon a conviction, the writ ought not to be
issued, or, if issued, the prisoner should at once be remanded, if the court below had jurisdiction
3

of the offence, and did no act beyond the powers conferred upon it. The court will look into the
proceedings so far as to determine this question. If it finds that the court below has transcended
its powers, it will grant the writ and discharge the prisoner, even after judgment. Ex parte
Kearney, 7 Wheat. 38; Ex parte Wells, 18 How. 307; Ex parte Lange, 18 Wall. 163. "But if
the court had jurisdiction and power to convict and sentence, the writ cannot issue to correct a
mere error. We have shown that the court below had power to determine the question before it:
and that this is so, is further manifest from the languageof Chief Justice Marshall in the case of
Tobias Watkins. 3 Pet. 203. He there says, " "To determine whether the offence charged in the
indictment be legally punishable or not, is among the most unquestionable of its [the court's]
powers and duties." id. at pg.-s (19-23).
The Suspension Clause provides that “[t]he Privilege of the Writ of Habeas Corpus shall
not be suspended, unless when in Cases of Rebellion or Invasion the public Safety may require
it.” U. S. Const.. Art. I. $9, cl. 2. In INS v. St. Cvr. 533 U. S. 289, 121 S. Ct. 2271,150 L. Ed.
2d 347 (2001). we wrote that the Clause, at a minimum, “protects the writ as it existed in 1789,”
when the Constitution was adopted. Id., at 301 (internal quotation marks omitted).
In 1768, Blackstone’s Commentaries—usually a “satisfactory exposition of the common
law of England,” Schick v. United States, 195 U. S. 65, 69, 24 S. Ct. 826, 49 L. Ed. 99, T.D.
802 (1904)—made this clear. Blackstone wrote that habeas was a means to “remov[e] the injury
of unjust and illegal confinement.” 3 W. Blackstone, Commentaries on the Laws of England
137 (emphasis deleted). Justice Story described the “common law” writ the same way. See 3
Commentaries on the Constitution of the United States §1333, p. 206 (1833). Habeas, he
explained, “is the appropriate remedy to ascertain ... whether any person is rightfully in
confinement or not.” Ibid.
INDIRECTLY SUSPENSION OF THE GREAT WRIT.
I. State Officials Obstruction of Justice.
In the case at bar the trial judge ordered the court reporter to alter the record of trial and
4

withhold said record evidence from direct state appellate court review, from Habeas Motion
pursuant to 28 U.S.C. § 2254 review, and release the record 2-days after the Federal Habeas
Court denied the writ. See Appendix-( A) (Dating the day the hidden record was finally
transcribed).
Petitioner then sought State Habeas review on the structualy and jurisdictional defected
judgment pursuant to K.S.A. § 60-1507 (State Habeas Corpus Statute). See Appendixes-( E )
and ( F ). In both Loggins-I and Loggins-II the State district Court and Kansas Court of
Appeals applied a harmless error review to petitioners claims and ruled diametrically different
then this Superior Courts mandate, on the well established rule of constitutional law.
Under the statute, a federal court may grant a writ of habeas corpus if the relevant statecourt decision was either (1) "contrary to ... clearly established Federal law, as determined by
the Supreme Court of the United States," or (2) "involved an unreasonable application of...
clearly P4051 established Federal law, as determined by the Supreme Court of the United
States." Williams. 529 atU.S. 405.
The word "contrary" is commonly understood to mean "diametrically different," "opposite
in character or nature," or "mutually opposed." Webster's Third New International Dictionary
495 (T976). The text of § 2254(d)(1) therefore suggests that the state court's decision must be
substantially different from the relevant precedent of this Court. "The Fourth Circuit's
interpretation of the "contrary to" clause accurately reflects this textual meaning. A state-court
decision will certainly be contrary to our clearly established precedent if the state court applies a
rule that contradicts the governing law set forth in our cases. Williams, 529 at U.S. 405.

5

Not only is the decision reached by the lower courts diametrically different then clearly
established federal law as decided by this court, the courts also applied the wrong standard of
review which in itself warrants a reversal. "When a court makes a ruling applying the wrong
standard of review, is grounds for reversal." Dickerson v. Zurko. 527 U.S. 150. 119 S.Ct. 1816;
144 L.Ed. 2d 143 (1999). The standard of review utilized by the state courts applies a harmless
error review, (Irregularity at preliminary! This Superior Court has consistently held a
structual error defies harmless error review.
We have recognized a limited class of fundamental constitutional errors that "defy
analysis by 'harmless error' standards." Arizona v. Fulminante, 499 U.S. 279, 309. 113 L. Ed. 2d
302. 111 S. Ct. 1246 (19911; see Chapman v. California. 386 U.S. 18. 23. 17 L. Ed. 2d 705. 87 S.
Ct. 824 (1967). Errors of this type are so intrinsically harmful as to require automatic reversal
(i.e., "affect substantial rights") without regard to Their effect on the outcome. (Quoting Neder v.
United States. 527 U.S. 1, 119 S. Ct. 1827. 144 L. Ed. 2d 35 (19991 "[I]f the defendant had
counsel and was tried by an impartial adjudicator, there is a strong presumption that any other
‘

[constitutional] errors that may have occurred are' subject to harmless-error analysis." Rose v.
Clark, 478 U.S. 570, 579. 92 L. Ed. 2d 460, 106 S. Ct. 3101 (1986). Indeed, we have found an
error to be "structural," and thus subject to automatic reversal, only in a "very limited class of
cases." This Superior Court has declared the claim raised by petitioner as structual, "Turney v.
Ohio. 273 U.S. 510. 71 L. Ed. 749, 47 S. Ct. 437 (19271 (biased trial judge), id. at pg.-8.
STATE COURTS METHOD OF SUSPENDING THE WRIT INDIRECTLY
The State Court have ignored the structual error, {biasedjudge component) and lack of
jurisdiction challenge (28 U.S.C. § 455(a) disqualifyingfactor), and simply entered rulings that
6

are clearly in violation of well established federal law as defined by this Superior Court, applying
the wrong standard of review, then asserting that petitioners claims are barred by res judicata and
issue preclusion, thus forclosing the door of Habeas Relief in the state courts.
FEDERAL COURTS METHOD OF SUSPENDING THE WRIT INDIRECTLY
The lower federal courts have held that Petitioner cannot utilized Fed. R. 60(b) to
challenge the courts jurisdiction, because if the court agrees with petitioner it would result in the
reversal of the state court "conviction". See Appendix-( Q ).
The lower federal courts held that petitioner must seeking permission to file a second
2254 motion pursuant to 28 U.S.C. § 2244. Petitioner filed said application and therein stated
exceptional circumstances. This Superior Court has consistently held:
"InMeCleskev v. Zant. 499 U.S. 467. 493-94. 113 L. Ed. 2d 517. Ill S. Ct. 1454
(1991), the Supreme Court explained the "cause" requirement as follows:
" In procedural default cases, the cause standard requires the petitioner to show that
"some objective factor external to the defense impeded counsel's efforts" to raise the
claim in state court. Murray v. Carrier, 477 U.S. 14781. at 488 K1986)1. Objective
factors that constitute cause include "'interference by officials"1 that makes
compliance with the State's procedural rule impracticable, and "a showing that the
factual or legal basis for a claim was not reasonably available to counsel." Ibid. In
addition, constitutionally ineffective assistance of counsel... is cause." Ibid. Attorney
error short of ineffective assistance of counsel, however, does not constitute cause and
will not excuse a procedural default. Id., at 486-488.
Despite showing that petitioner, all petitioners direct appeal counselors and post­
conviction appointed counselors was denied access to the crucial portions of the preliminary
examination that establishes the structual error. Said evidence was hidden from review until 2days after the federal district court denied federal habeas corpus relief. See Appendix-( L ). Thus
not only was there interference by officials but a criminal act of obstruction of justice through
7

spolitation of the record to prevent the raising of the claim that demands an automatic reversal.
This Superior Court has long held that petitioners that invoke the federal courts
jurisdiction, and is not satisfied with the outcome may question the courts jurisdiction. "A party
who has invoked the jurisdiction of the federal court and is unhappy with its decision may indeed
challenge its jurisdiction even after verdict." American Fire & Cas. Co. v. Finn (1951) 71 S. Ct.
534, 341 U.S. 6, 95 L. Ed. 702.19 A.L.R.2d 738.
The law is unambiguous that if the trial court proported judgment of conviction is void all
other courts rulings thereupon are themselves invalid. ""A void judgment is not entitled to the
respect accorded to, and is attended by none of the consequences of, a valid adjudication. Indeed,
a void judgment need not be recognized by anyone, but may be entirely disregarded or declared
inoperative by any tribunal in which effect is sought to be given to it. It has no legal or binding
force or efficacy for any purpose or at any place. It cannot affect, impair, or create rights, nor can
any rights be based on it."
"Although it is not necessary to take any steps to have a void judgment reversed or
vacated, it is open to attack or impeachment in any proceeding, direct or collateral, and at any
time or place, at least where the invalidity appears upon the face of the record. "All proceedings
founded on the void judgment are themselves regarded as invalid and ineffective for any
purpose." (Emphasis added.) 46 Am. Jur. 2d, Judgments § 31. p. 393-94.
Both state and federal law acknowledges and holds that a void judgment may be
challenged at anytime. "Void for want of jurisdiction may be attacked at any time and may be
vacated because it is a nullity." State v. Minor. 197 Kan. 296, 300. 416 P.2d 724 (1966). Despite
the language of Rule 60(b) that all motions for relief must be "made within a reasonable time," a
8

V.

motion under Rule 60(b)(4) may be made at anv time. See Orner v. Shalala. 30 F.3d 1307,
1310 goth Cir. 1994^): 12 Moore's $ 60.44[5Hcl: 11 Wright & Miller $ 2862. at 324.
Thus, the lower federal courts have held that petitioner cannot utilized Fed. R. 60(b), and
cannot file a second 2254 motion pursuant to 28 U.S.C. § 2244, amounts to forclosure of the
Great Writ repugnant to the Art. I § 9 [2] of the United States Constitution. Neither the lower
federal courts or the state courts deny that petitioners claim is structual or jurisdictional, both
state and federal courts appears to hold that laches and res judicata prohibits habeas review of
petitioners claims.
A fundamental precept of common-law adjudication, embodied in the related doctrines of
collateral estoppel and res judicata, is that a "right, question or fact distinctly put in issue and
directly determined by a court of competent jurisdiction ... cannot be disputed in a subsequent
suit between the same parties or their privies ...." Southern Pacific R. Co. v. United States,
168 U.S. 1. 48-49 (1897)." Under res judicata, a final judgment on the merits bars further claims
by parties or their privies based on the same cause of action. Cromwell v. County of Sac, 94
U.S. 351. 352 (1877); Lawlor v. National Screen Service Corn.. 349 U.S. 322, 326 (19551.
"Even as to prior determinations from state courts, the Supreme Court has long
recognized that NO PRECLUSIVE EFFECT will attach where the court was without subject
matter jurisdiction over the controversy." Lessess of Hickey v. Stewart. 44 U.S. 750,11 L.Ed.
814(18451.

9

A "void" judgment as we all know grounds no rights, forms no defense to actions taken
thereunder, and is vulnurable to any manner of collateral attack, (thus here, by.)

"No statute of

limitations or repose runs on its holdings, the matters thought to be settled thereby are NOT RES
JUDICATA, and years later, when the memories may have grown dim and rights long been
regarded as vested, any disgruntled litigant may reopen the old wound and once more probe its
depths. And it is then as though trial and adjudication had never been." Fritts v. Krugh.
92 ,W.2d 604. 354 Mich. 97.
The law is well-settled there is no time limit when a judgment is void, see Precision Eng.
v. LPG. C.A. 1st (1992k 953 F.2d 21 at pg.-22; In re: Center Wholesale. Inc. C.A. 10th
(1985k 759 F.2d 1440 at pg.-1448: Meadows v. Dominican Republic C.A. 9th Q987T 817 F.2d
at pg.-521: Misco Leasing v. Vaughn CA 10th (1971) 450 F.2d 257. Taft v. Donellen CA 7th
(1969) 407 F.2d 807. also see "Judgments was vacated as void after 30 years in entry,"
Crosby v. Bradstreet. CA 2nd (1963) 312 F.2d 483 cert denied 83 S.Ct. 1300. 373 U.S. 911,10
L.Ed. 2d 412. "Delay of 22 years did not bar relief," U.S. v. Williams. D.C. Ark. (1952) 109
F.Supp.- 456.
The State Courts are of the legal opinion that petitioners claims are barred by laches and
the doctrines of res judicata or issue preclusion, that irregardless that petitioner is challenging the
courts jurisdiction or the original judgment as void, that according to Kansas Law, even if the
state officials ruled in violation of law, in a manner dimetrically different then this Superiors
Courts decision of well established federal law, hide evidence, or destroy it for the purpose of
obstruction of justice, failure to raise the claim renders the void judgment valid, and defendants
without a vehicle to seek the relief. See Exhibit-(l) hereto, pg.-( 6), para.,-2 & 3.
10

Therein, the Kansas Courts of Appeals, addressed petitioners challenge to the trials courts
jurisdiction, in both District Court Case No. 95 CR 1616 and 1859. The court held thats since
petitioner raised a similar argument in a previous motion for writ of habeas corpus, that
irregardless that petitioners claims are jurisdiction, petitioner is without a vehicle to challenge
jurisdiction.
Likewise, the Federal District Court and U.S. Court of Appeals for the 10th Cir., both
held that Rule 60(b) and a Second 2254 Motion is unavailable for petitioner to challenge the
courts jurisdiction in the first instance. That although state officials interferred with petitioners
ability to raise the claim in state court direct review and on petitioners previous 2254 motion,
since petitioner had knowledge of the violation, that petitioner cannot file a second 2254 motion.
This Court has held that habeas corpus is not 'a static, narrow, formalistic remedy,' Jones
v. Cunningham, 1371 U.S. 236,1 243 |T963)L but one which must retain the 'ability to cut
through barriers of form and procedural mazes.' Harris v. Nelson, 394 U.S. 286. 291 (19691 See
Frank v. Mangum, 237 U.S. 309. 346 (1915J (Holmes, J., dissenting). 'The very nature of the
writ demands that it be administered with the initive and flexibility essential to insure that
miscarriage of justice within its reach and surfaced and corrected.' Harris v. Nelson, supra, at
291.
"The writ of habeas corpus petition is a fundamental instrument for safeguarding
individual freedom against arbitrary and unlawful state action". Harris v. Nelson, 394 U.S. 286,
291X1969). The current statute confers similar power, 28 U.S.C. $ 2241(c)(3). and provides:
"The court shall... dispose of the matter as law and justice require." 28 U.S.C. § 2243. As the
statute suggest, the central mission of the Great Writ should be the substance of "justice", not
form of procedures. As Justice Frankfurter explained in his seperate opinion in Brown v. Allen.
344 U.S. 443. 498 (19531
"The meritorious clams are few, but our procedures must ensure that those few claims are
not stifled by undiscriminating generalities. The complexities of our federalism and the working
of a scheme of government involving the interplay of two governments, one which is subjected to
limitations enforced by the other, are not to be escaped by simple, rigid rules which, by avoiding
some abuses, generate others." (Emphasis added).
11

Thus the statutory means of seeking relief in the State/Federal tribunal, pursuant to
Habeas Corpus Relief, (Art. I § 9[2]) for the legal nullity (void judgments) is K.S.A. § 60-1507,
Federal counterpart, 28 U.S.C. § 2254, and K.S.A. § 60-260(b)(4), federal counterpart, Fed. R.
60(b)(4). As demostrated herein and in the petition, the Kansas State Courts, Sedgwick County
District Court, and the Kansas Court of Appeals, holds that petitioners claims is time barred/res
judicata. Although NO STATE COURT answered the challenge of jurisdiction utilizing the
living record. The Kansas Supreme Court, simply refused to take jurisdiction and order the trial
court/State to prove jurisdiction existed and wasn't lost. See Appendix-( K ).
The U.S. District Court and the U.S. Court of Appeals for the Tenth Circuit, both held
that petitioners challenge to the jurisdiction could not be raised in a Fed. R. 60(b)(4) motion,
because if petitioners arguments are correct it would result in the reversal of the state court
conviction. See Appendixes-( Q ).

The Tenth Circuit Court in denying petitioners

Certificate of Appealability and dismissing the appeal, ruled that petitioner needed to seek
authorization pursuant to 28 U.S.C. § 2244.
Upon seeking said authorization, the Tenth Circuit Court denied permission holding that
petitioners claim was known to petitioner, thus there lies no newly discovered evidence. See
Appendix-(L )• The record evidence was concealed by state officials to obstruct the state direct
review courts and the federal district court from reviewing the record evidence. The concealment
of the record from petitioner and petitioners lawyers, prevented petitioner from developing the
claim previously, as well as previous to the prior 2254 motion. Said evidence was no made
available until 2-days after the federal district court denied review..
Therefore, seeking to raise the claim in a subsequintial motion when the evidence was

12

made available after giving the state courts an opportunity to correct the structual/jurisdictional
defect/error, renders the evidence newly discovered. Surely, the fact that officials intentionally,
with malicious intent withheld, hid, altered and concealed the evidence in question to prevent
review, constitutes the Exceptional Circumstances/Extraordinary Circumstance mentioned in
the Murray v. Carrier, supra id. holding.
This amounts to the state officials committing a criminal act, (T18 U.S.C. $ 1512(c)(lYD
to cover up its actions of depriving petitioner of my life/liberty for going on 26 years in violation
of the SUPREME LAW of this land, THE UNITED STATES CONSTITUTION. See Article
6 [Supremecy Clause].
CONCLUSION

"The constitution gives the Supreme Court original jurisdiction in certain enumerated
cases, and gives it appellate jurisdiction in all others. Among those in which jurisdiction must be
exercised in the appellate form, are cases arising under the constitution and laws of the United
States. These provisions of the constitution are equally obligatory, and are to be equally
respected. If a State be a party, the jurisdiction of this Court is original; if the case arise under a
constitution or a law, the jurisdiction is appellate. But a case to which a State is a party may arise
under the constitution or a law of the United States. What rule is applicable to such a case? What, ,
then, becomes the duty of the Court? Certainly, we think, so to construe the constitution as to
give effect to both provisions, as far as it is possible to reconcile them, and not to permit their
seeming repugnancy to destroy each other. We must endeavour so to construe them as to
preserve the true intent and meaning of the instrument." Cohens v. Virginia, 19 U.S. 392-393.
Wherefore, there lies no other court to seek the relief petitioner seeks and as the Great
Writ provides American Citizens the Right to redress, I invke this Superior Courts Jurisdiction to
correct this Manifest Miscarriage of Justice. As our Country is a land of laws, state official can
not break the law/violate the Supreme Law [Constitution] capriciously and arbitrarily to
"enforce" the state laws. The case must be reversed and remanded, for it requires the protection
of the Federal Constitutional laws, which the Justices and Judges of this have all vowed a oath to
13

\

uphold. To turn a blind eye upon the question, requires that the Court can only reconcile the
claims and procedural mazes preventing review and relief, by holding that Dred Scott v.
Sandford (18571 60 U.S. (19 How.l 393. 15 L. Ed. 691. although abolished by the 13th
Amendment, is still applicable to some poor blacks, thus holding that petitioner had no due
process rights, therefore can not claim equal rights to the laws of the issues in controversy. This
court should take up this matter for it involves the LIBERTY INTEREST of petitioner, and all
black citizens in the State of Kansas.

Respectfully Submitted,

Kevin D. Loggins Sr.
PROOF OF SERVICE
I, Kevin D. Loggins Sr • 9 hereby certify tinder penalty of perjury, that the forgoing Application to Justice Sotomayor, to here
the petition before a single justice was deposited in the institutional mailing system at HCF, in Hutchinson, Kansas postage prepaid
addressed to the following: Kansas Attorney General, 120 SW 10th
Avenue, Topeka, Kansas 66612 and the United States Attorney General
, Department of Justice, 950 Pennsylvania Avenue, N.W • * Washington,
DC 20530-0001,
Sworn under penalty of perjury,
Kevin Deon Loggins Sr. (Pro se)
Executed this 26th day of Aug • 9
2021 .

14

EXHIBIT-A
NOT DESIGNATED FOR PUBLICATION
No. 116,716
IN THE COURT OF APPEALS OF THE STATE OF KANSAS
Kevin D. loggins Sr.,
Appellant,
v.
State of Kansas,
Appellee.
MEMORANDUM OPINION
Appeal from Sedgwick District Court; JAMES R. FLEETWOOD, judge. Opinion filed August 30,
2019. Affirmed.
Kevin D. Loggins Sr., appellant pro se.
Matt J. Maloney, assistant district attorney, Marc Bennett, district attorney, and Derek Schmidt,
attorney general, for appellee.
Before ARNOLD-BURGER, C.J., BRUNS and WARNER, JJ.
PER CURIAM: Since Kevin D. Loggins Sr.'s convictions were affirmed in 1998, he
has sought multiple avenues of relief, including a number of motions for writs of habeas
corpus under K.S.A. 60-1507. In 2016, the district court summarily dismissed Loggins'
fourth such motion as successive under K.S.A. 60-1507(c). Loggins now appeals that .
dismissal, arguing that the district court failed to make the findings of fact and
conclusions of law required by Kansas Supreme Court Rule 183(j) (2019 Kan. S. Ct. R.
228). Loggins also contends that the dismissal of his motion as successive was improper
and that he is entitled to relief on the merits of his claims. We affirm.

1

\

On January 8, 2016, while Loggins' appeals in Loggins VII and Loggins VIII were

pending before this court, Loggins filed the K.S.A. 60r 1507 motion that gives rise to this
appeal. In this motion, Loggins alleged that the trial court lacked subject matter
jurisdiction over him with respect to his April 1996 convictions because it failed to
properly obtain his plea at arraignment.

;•

On January 27, 2016, the district court filed a motion minutes order summarily
dismissing Loggins' most recent K.S.A. 60-1507 motion. The order stated in its entirety:
-i

"The previous 60-1507 (04CV2780) is on Appeal; the Court finds this current petition for
relief an abuse of judicial process, it is repetitive and without merit and is therefore
dismissed."
Loggins filed a motion to reconsider before a different judge and a motion to
recuse the district court judge. Six weeks later, Loggins filed a document titled
"Additional Arguments," where he alleged a violation of his constitutional right.to a
speedy trial associated with his April 1996 convictions. The district court denied Loggins

?

motion to reconsider and motion for recusal, and this appeal followed.
;

On appeal, Loggins claims the district court erred in summarily dismissing his
K.S.A. 60-1507 motion in two respects: First, he asserts that the district court's minutes
order did not comply with Supreme Cotirt Rule 183(j), which states that a district court
considering aKS.A. 60-1507 motion "must make findings of fact and conclusions of law
on all issues presented." (2019 Kan. S. Ct. R. 230.) Second, he argues that the district
court's summary dismissal of his motion as successive was improper and that he is
entitled to relief on the merits of his claims that the trial
court in.: case No.
95. CR 1616
'
failed to properly obtain his plea at arraignment and violated his constitutional right to a
speedy trial
■

3

JV'ilson, 308 Kan. 516, 527, 421 P.3d 742 (2018) (finding remand for failure to comply
\

.........

....

with Rule 183[j] unnecessary where it did not impede appellate review of issue). The
record before us is adequate to review the court's ruling, and we do so.

2. The district court did not err in dismissing Loggins' presentK.S.A. 60-1507
motion as successive...........
A prisoner generally is entitled ton hearing, on a K.S.A. 60-1507 motion "[u]nless
the motion and the files and records of the case conclusively show1 that the prisoner is
entitled to no relief." K.S.A. 2018 Supp. 60-1507(b); Beauclair v. State, 308 Kan. 284,
302, 419 P.3d 1180 (2018). When the district court summarily dismisses a K.S.A. 601507 motion, as the court did here, we review that dismissal de novo to determine
whether the motion, files, and records of the case conclusively establish that the movant
is not entitled to relief. Sola-Morales, 300 Kan. at 881.
A district court is not required to entertain a second or successive K.S.A. 60-1507
motion for similar relief on behalf of the same prisoner. See K.S.A. 2018 Supp. 601507(c); State v. Kelly, 291 Kan. 868, 872, 248 P.3d 1282; (2011); Supreme Court Rule ,
183(d): Loggins has filed at least three previous K.S.A. 60-1507 motions. See hoggins
VIII, 2016 WL 4413504; Loggins IV, 2010 WL 2217105; Loggim. Ill, 2007 WL 2080359;
Thus, in order to avoid dismissal of his current motion as an abuse of remedy under
K.S.A, 2018 Supp. 60-1507(c), Loggins must establish exceptional circumstances exist
that warrant consideration of his current claims. Beauclair, 308 Kan: at 304; see State v.
Trotter,29.6 Kan. 8.98, Syl. If 2-295 P.3d 1039,(2013) ("A movant in; a K.S.A. 60-1507
motion is presumed to have listed all grounds for relief, and a subsequent motion need
not be considered in the absence of a showing ofcircumstances justifying the original
failure to list a ground.").. Our Kansas Supreme Court has defined exceptional
circumstances as "unusual events or intervening changes in the law that prevented the
defendant from raising the issue in a,preceding.[K.S;A.] 60-1507 motion." State v.
Mitchell, 284 Kan: 374, Syl: f 5, 162 P.3d 18 (2007).
5

-

' ' . cirri'

We further note that the prohibition against successive K.S.A. 60-1507 motions is
consistent with traditional notions of claim preclusion, barring not only claims actually
raised in prior motions but also those claims that could have been raised in a prior
motion. Toney v. State, 39 Kan. App. 2d 944, 948, 187 P.3d 122 (2008); see Fowler v.
State, 37 Kan. App. 2d 477, 480-82, 154 P.3d 550 (2007). Any claim relating to Loggins
arraignment or his right to a speedy trial could have been raised on direct appeal or in his
•:

prior K.S.A. 60-1507 motions. Loggins has not provided this court with any unusual
events or intervening changes in Kansas law that prevented him from being aware of and
raising these issues.
C.'

In fact, Loggins challenged his arraignment for his February 1996 convictions in
his first two K.S.A. 60-1507 motions and in his K.S.A. 60-260 motion. See Loggins VII,
2016 WL 4259943, at *2 ("Loggins claims the district court lacked subject matter
jurisdiction in his case because he was never properly arraigned."); Loggins IV, 2010 WL
2217105, at *3 ("We have reviewed the transcript excerpts provided by Loggins, and they
do not raise an issue regarding his presence at arraignment."); Loggins III, 2007 WL
2080359, at *6 ("There was sufficient competent evidence to support the district court's
.r

finding that Loggins was properly arraigned on all charges.").
Although Loggins currently seeks to challenge his arraignment leading to his April
1996 convictions, the two cases were tried around the same time and were consolidated
!

on direct appeal. While the supporting arguments may differ, we find that Loggins
essentially seeks successive consideration of the same issue. This does not constitute an
exceptional circumstance warranting review of a successive motion. Accord Dawson v.
State, No. 94,720, 2006 WL 3877559, at *2 (Kan. App. 2010) (unpublished opinion)
(holding movant did not establish exceptional circumstances that prevented him from
presenting all permutations of ineffective assistance of counsel in first K.S.A. 60-1507
motion; therefore movant "should not be permitted to piecemeal an issue of ineffective
assistance of counsel to circumvent Supreme Court Rule 183[d]").
7

